    Report No. D-2009-075               May 21, 2009




Afghanistan Security Forces Fund Phase III-Accountability
for Weapons Distributed to the Afghanistan National Army
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ANA            Afghanistan National Army
ARSIC          Afghanistan Regional Security Integration Command
ASF            Afghanistan Security Forces
ASP            Ammunition Supply Point
CSTC-A         Combined Security Transition Command-Afghanistan
DSCA           Defense Security Cooperation Agency
FMS            Foreign Military Sales
IRoA           Islamic Republic of Afghanistan
LOA            Letter of Offer and Acceptance
MoD            Ministry of Defense
NATO           North Atlantic Treaty Organization
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704



                                                                                       May 21,2009

MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
               COMMANDING GENERAL, COMBINED SECURITY
                  TRANSITION COMMAND-AFGHANISTAN

SUBJECT: Afghanistan Security Forces Fund Phase III - Accountability for Weapons
         Distributed to the Afghanistan National Army (Report No. D-2009-075)


We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. CSTC-A
comments on the draft report were responsive to all but one recommendation. As a result of the
comments, we chose to revise Recommendation B. Therefore, we request that the Commanding
General, CSTC-A provide comments on Recommendation B. by June 11,2009.

If possible, send your comments in electronic format (Adobe Acrobat file only) to
audj&oo@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the I Signed I symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-8905 (DSN 664-8905).




                                         ~Pa . Granetto
                               Principal A .stant Inspector General
                                           for Auditing
Report No. D-2009-075 (Project No. D2007-D000LQ-0161.005)                   May 21, 2009


              Results in Brief: Afghanistan Security Forces
              Fund Phase III – Accountability for Weapons
              Distributed to the Afghanistan National Army
What We Did                                                entry to the point of formal transfer to the
                                                           ANA.
We reviewed records for 16,056 weapons in
                                                          Establish in the procedures a specific point
storage at Afghanistan National Army (ANA)
                                                           of formal transfer of weapons to the ANA.
Depot 1, and conducted a physical count of
11,134 weapons valued at $6.8 million to                  Complete and implement ANA Depot 1
determine whether the Combined Security                    standard operating procedures for receipt,
Transition Command-Afghanistan (CSTC-A)                    storage, and issue of munitions.
correctly accounted for ANA weapons                       Implement data input quality controls in the
purchased with the Afghanistan Security Forces             ANA Depot 1 inventory management
(ASF) Fund. We also determined whether                     system software to prevent duplicate serial
CSTC-A properly transferred ownership of the               number entries.
weapons to the ASF.                                       Establish procedures that require the
                                                           recording of weapons’ serial numbers in the
                                                           ANA Depot 1 inventory management
What We Found                                              system.
We identified material internal control                   Conduct a 100-percent physical inventory of
weaknesses in accounting for weapons provided              weapons at the ANA Depot 1 to establish a
to the ANA. CSTC-A did not have a formal                   reliable baseline.
process in place to transfer weapons to the               Develop a long-term plan of action resulting
ANA. In addition, CSTC-A was unable to                     in ANA management of ANA Depot 1
account for weapons, including weapons                     operations.
purchased with the ASF Fund. CSTC-A records
                                                          Request a security inspection of ammunition
did not list all weapons by serial number, and
                                                           supply point facilities.
accountability systems used at ANA Depot 1
had significant data integrity problems. The
CSTC-A Logistics Office has implemented                Management Comments and
corrective action to address these problems.           Our Responses
                                                       The CSTC-A Commanding General concurred
In addition, we identified material internal           with the audit recommendations and has
control weaknesses in the safeguarding of ANA          implemented standard operating procedures to
weapons. Security at ammunition supply points          address accountability, custody, and control of
built with ASF funds in Gardez, Herat, and             weapons supplied by the United States to the
Mazar-e-Sharif was not in compliance with              Afghanistan National Army. His comments
DoD guidance.                                          were responsive on all but one recommendation,
                                                       which concerned the security at ammunition
What We Recommend                                      supply point facilities. Additional comments
We recommend that CSTC-A:                              are required by June 11, 2009 as outlined in the
 Issue formal written procedures for the              table on the back of this page.
  accountability, control, and physical security
  of U.S.-supplied weapons so that there is an
  unbroken chain of custody from the point of

                                                   i
Report No. D-2009-075 (Project No. D2007-D000LQ-0161.005)          May 21, 2009

Recommendations Table
Management                      Recommendations             No Additional Comments
                                Requiring Comment           Required
Commanding General,             B.                          A.1., A.2.
Combined Security Transition
Command-Afghanistan

Please provide comments by June 11, 2009.




                                            ii
Table of Contents

Results in Brief                                                 i

Introduction                                                     1

       Objectives                                                1
       Background                                                1
       Review of Internal Controls                               2

Finding A. Weapons Accountability, Custody, and Control          5

       Management Actions                                       11
       Recommendations, Management Comments, and Our Response   12

Finding B. Security of Weapons                                  17

       Recommendation, Management Comments, and Our Response    18

Appendices

       A.   Scope and Methodology                               21
       B.   Prior Coverage                                      23
       C.   Procedures for Pseudo-Foreign Military Sales        25
       D.   Inventory Control Guidance                          27
       E.   Afghanistan National Army Depot 1 Procedures        29


Management Comments

       Combined Security Transition Command-Afghanistan         33
Introduction
Objectives
Our objectives for the Afghanistan Security Forces (ASF) Fund Phase III audit were to
determine whether organizations in Southwest Asia given the responsibility by the
U.S. Central Command for managing the ASF Fund properly accounted for the goods
and services purchased using ASF Funds. We further determined whether the goods and
services purchased were properly delivered to the Afghanistan National Security Forces.
This report focuses on weapons purchased for the Afghanistan National Army (ANA)
with the ASF Fund. See Appendix A for a discussion of the scope and methodology and
Appendix B for prior coverage related to the objectives.

Background
This report is part three of a three-phase audit of the ASF Fund. In total, about
$15.3 billion was appropriated to the ASF through six Public Laws: 109-13, 109-234,
109-289, 110-28, 110-161, and 110-252. For this report, we reviewed Combined
Security Transition Command-Afghanistan (CSTC-A) procedures and systems that were
used to account for weapons planned for transfer to the ANA, including the transfer,
storage, and issue of weapons funded using ASF funds.

In the first phase of our audit, we determined that the Under Secretary of Defense
(Comptroller)/ DoD Chief Financial Officer and the Office of the Assistant Secretary of
the Army (Financial Management and Comptroller) distributed $4.7 billion of budget
authority appropriated by Public Laws 109-13, 109-234, and 109-289 for the ASF Fund
in compliance with provisions of the three Public Laws and appropriations law.

In the second phase of our audit, we determined that six DoD commands obligated
$1.3 billion in accordance with legal provisions in Public Laws 109-13, 109-234, and
109-289 to assist the ASF. The second phase was conducted concurrently with the third
phase of our ASF Fund audit.

Audit Coordination
This audit was performed in conjunction with the efforts of the Government
Accountability Office and the DoD Inspector General Munitions Assessment Team. We
aligned the objectives of the ASF Fund Phase III audit with the overall U.S. Government
effort to review the accountability for weapons purchased with ASF funds. During April
2008, the DoD Inspector General Munitions Assessment Team evaluated the
accountability and controls over munitions planned for transfer to the ASF. The results
of their visit were published in October 2008. The Government Accountability Office
reviewed DoD and Department of State documents relating to accountability procedures
and practices, reviewed contractor reports on efforts to train the ASF on accountability,
and met with cognizant U.S. and Afghan Government officials during their visit to
Afghanistan in August 2008. The GAO issued their report in January 2009. On the basis
of the Munitions Assessment Team’s preliminary findings, we performed a detailed


                                            1
review of policies and procedures for handling weapons and conducted an inventory of
weapons stored at ANA Depot 1 in June 2008 (See Figure 1). CSTC-A took corrective
action based on our initial audit results. The Munitions Assessment Team visited
Afghanistan during March 2009 following up on the prior DoD Inspector General and
GAO recommendations, assessing the status of weapon accountability in Afghanistan.
The results of that review will be published in July 2009.




         Figure 1. Weapons Housed at ANA Depot 1

Afghanistan Security Forces Fund
Public Laws 109-13, 109-234, 109-289, 110-28, 110-161, and 110-252 appropriated
monies for the ASF Fund. The funds allowed for the provision of equipment; supplies;
services; training; and facility repair, renovation, and construction. The weapons
purchased for the ANA fall under the equipment portion of the ASF Fund appropriation.
See Appendix C for information on the Pseudo-Foreign Military Sales (FMS) process.

Combined Security Transition Command-Afghanistan
The CSTC-A mission is, in partnership with the Islamic Republic of Afghanistan (IRoA)
and key partner nations and organizations, to plan, program, and implement force
generation that establishes an enduring and self-sustaining capability in the ASF.

Guidance for Inventory Control
The United States Law, DoD Instructions, and Army Regulations provide guidance
requiring all persons entrusted with the management of Government property to maintain
adequate controls and accountability for property under their control. See Appendix D
for the guidance concerning inventory control.

Review of Internal Controls
We identified material internal control weaknesses for CSTC-A as defined by DoD
Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4, 2006,
as they applied to the audit objective. DoD Instruction 5010.40 states that internal
controls are the organization policies and procedures that help program and financial
managers achieve results and safeguard the integrity of their programs. CSTC-A did not
have a process in place to officially transfer weapons to the ANA; lacked accountability
for ANA weapons issued by and stored at ANA Depot 1; and required security
improvements at Ammunition Supply Points (ASPs) in Gardez, Herat, and



                                           2
Mazar-e-Sharif. Implementing our recommendations will improve the internal controls
over the transfer of custody and accountability of weapons provided to the ANA and
improve security at ASPs throughout Afghanistan. We will provide a copy of the report
to the senior CSTC-A official responsible for internal controls.




                                          3
4
Finding A. Weapons Accountability,
Custody, and Control
CSTC-A did not maintain accountability, custody, and control of weapons for the ANA
in accordance with DoD guidance because the command did not implement or follow
serial number controls. As a result, DoD had no assurance that weapons purchased for
the ANA were received or that ANA units received the correct quantity or type of
weapon.

ANA Depot 1
ANA Depot 1 is the primary receiving and storage location for all Class II, IV, VI, and
VII materiel1 for the ANA. Although ANA Depot 1 is an Afghanistan Ministry of
Defense (MoD) activity, the operations are managed by CSTC-A military personnel and
contractor, MPRI Inc. employees. ANA personnel have been unable to assume
management and operation of the ANA Depot 1 warehouse. CSTC-A officials stated that
ANA Depot 1 operations were scheduled for turnover to the ANA on August 1, 2008;
however, CSTC-A did not meet the turnover date. CSTC-A officials also stated that the
Afghanistan MoD was not staffing ANA Depot 1 permanently, and that ANA personnel
had not been afforded enough time at the depot to develop the skills or proficiency
necessary to manage depot operations on their own.

The U.S. military members and contractor personnel operating ANA Depot I used an
automated system known as CoreIMS to manage the weapons inventory. CoreIMS is a
commercial, off-the-shelf inventory management system for small to medium warehouses
that was adapted to fit the needs of the ANA. The system was designed to address
warehouse needs including purchasing through receiving, managing inventory and
orders, and shipping. CoreIMS allows the user to maintain and manage vendor and
customer contact information in one system, including multiple addresses. The system
also allows the user to generate reports that can be customized to deliver useful
information to management. MPRI Inc. personnel at ANA Depot 1 maintain CoreIMS.

Serial Number Control
Although required to maintain a high degree of control over sensitive items at all times
(see Appendix D for applicable guidance), CSTC-A did not maintain serial number
control over weapons planned for transfer to the ANA. Figure 2 shows changes of
custody and physical control that occurred without serial number control.




1
  DoD 4140.1-R, “DoD Supply Chain Materiel Management Regulation,” May 23, 2003, defines the
following classes of materiel: Class II – Clothing, individual equipment, tentage, organizational
tool kits, hand tools, administrative, and housekeeping supplies and equipment; Class IV – Construction
materials including installed equipment and all fortification and/or barrier materials; Class VI – Personal
demand items (non-military sales items); Class VII – Major end items.


                                                      5
  Figure 2. Weapons Change Custody From Arrival to Issue by ANA Depot 1

Chain of Custody for Controlled Inventory Items
The custody of U.S.-supplied weapons delivered to Afghanistan for transfer to the ANA
changed with no formal transfer of control or responsibility for physical security.
Custody changed when an MoD representative received the weapons at the Kabul
International Airport and again when a DoD representative received the weapons at ANA
Depot 1. On neither occasion did U.S. Government representatives or accountable ANA
officers inventory the weapons or sign official documents including individual serial
numbers to maintain a record of transfer to ANA.

DoD Manual 4100.39-M defines weapons as sensitive items that require a high degree of
protection and control. DoD Instruction 5000.64 states that the current status and
location of all sensitive items must be tracked at all times. CSTC-A has not implemented
procedures to maintain control and track the current status of weapons from receipt at
Kabul Afghanistan International Airport through transfer to the ANA.

Weapons custody first changed when an MoD representative received the weapons for
transport at the Kabul Afghanistan International Airport. During this process, CSTC-A
did not maintain a complete audit trail by serial number indicating an unbroken chain of
custody for U.S.-supplied weapons from the point of entry at the airport to the point of
transfer to the ANA. Documents including individual serial numbers should have been
prepared to create a formal transfer between the two governments. The U.S. Government
relinquished physical custody and control of the weapons by allowing the MoD to


                                           6
transport the weapons to ANA Depot 1 without a U.S. Government representative
accompanying the convoy.

Custody changed for the second time when DoD representatives received the weapons at
the depot. Upon delivery of weapons at ANA Depot 1, pallets were stored without
further identification of the contents. Immediately before the weapons were allocated for
issue, MPRI Inc. representatives entered the weapons serial numbers into the ANA
Depot 1 inventory management system. See Appendix E for ANA Depot 1 receiving,
storage, and issuing procedures.

ANA Depot 1 Inventory Records
Because of the limited capability of the ANA to manage depot operations and maintain
the ANA Depot 1 inventory management system, U.S. military mentors2 and contractors
were performing these duties. CSTC-A had not implemented basic inventory controls
over receipt, storage, and issuance, in accordance with DoD guidance and did not achieve
data integrity with the few controls in place. Specifically, ANA Depot 1 staff did not:

       conduct a physical inventory during receiving operations of all serial numbered
        equipment and input the serial numbers into the inventory management system at
        the time the weapons were received;
       record weapons’ serial numbers accurately, or when necessary, create a new
        unique serial number, within the ANA Depot 1 inventory management system;
       send detailed packing lists of receipts to the CSTC-A Logistics Officer to
        reconcile order and delivery manifests; or
       verify serial numbers listed on MoD issuing documents during the issuing
        process.

According to senior U.S. military mentors at ANA Depot 1, insufficient staffing levels at
the depot prevented CSTC-A from implementing these practices to improve overall
accountability. CSTC-A had not placed adequate emphasis on maintaining
accountability for weapons in storage and issued at ANA Depot 1. As a result, the ANA
Depot 1 inventory records for weapons at ANA Depot 1 were inaccurate and incomplete.
Specifically, the inventory management system contained incomplete serial numbers,
duplicate serial numbers, and many weapons were listed simply as bulk quantities.

Incomplete and Duplicate Serial Entries
The ANA Depot 1 inventory management system contained a number of weapons’ serial
numbers with unusual characters such as asterisks (*). In addition, the inventory
management system listed duplicate serial numbers. ANA Depot 1 management
explained that weapons often arrived with serial numbers containing characters foreign to
the English Language that could not be translated into an alphanumeric equivalent.


2
 Senior mentors are U.S. Government military personnel or contractors functioning in an advisory capacity
with the ANA.



                                                   7
These weapons were sometimes entered into the inventory management system with an
asterisk as a placeholder for the foreign character. Alternatively, if the foreign character
was at the beginning of the serial number, it was omitted and the remaining portion of the
serial number entered into the inventory. The omission of the foreign character caused
serials to appear identical, leading to duplicate entries in inventory records.

This method of recording foreign serial numbers was not in accordance with DoD
4000.25-M, “Defense Logistics Management System,” volume 2, chapter 18, “Small
Arms and Light Weapons Serial Number Registration and Reporting,” change 2, June
2005, or with section 2-10, paragraph b of Army Regulation 710.3, “Inventory
Management Asset and Transaction Reporting System,” February 25, 2008, which states:
                  When the foreign weapon serial number cannot be translated into
                  alphanumeric equivalents, the UIT [unique item tracking] Central
                  Registry will assign a serial number that will be permanently inscribed
                  on the weapon and reported to the UIT Central Registry.

We identified 16 duplicate M16A2 serial entries in the inventory management system on
June 4, 2008. The ANA Depot 1 management explanation for duplicate serial numbers
could not be accurate in this case because the M16A2 is a North Atlantic Treaty
Organization (NATO) standard weapon whose serial number does not contain foreign
characters. With regard to duplicate serial numbers, Section 2-15, paragraph b of Army
Regulation 710.3 states:

                  When the UIT Central Registry encounters duplicate serial numbers, it
                  will request both activities to sight verify the WSNs [weapon serial
                  numbers] and stock number of the weapon to assure report accuracy. If
                  the weapon was reported incorrectly by one of the activities, then the
                  appropriate correction will be prepared and forwarded by the activity in
                  error. The correction will be submitted on the multifield correction
                  format (transaction code K) to the UIT Central Registry. Make the
                  necessary correction to the property book record also . . . . When
                  determined that the WSNs were reported correctly and there is a
                  duplicate serial number, the UIT Central Registry Office will notify one
                  of the activities to modify the WSN. Weapons with duplicate serial
                  numbers located in the wholesale system will be modified first, to the
                  extent possible. The serial number on the weapon and the property
                  book must be changed as directed by the UIT Central Registry.

Recording duplicate serial numbers in the inventory management system deviated from
Army Regulation 710.3 and DoD 4000.25-M. In addition, ANA Depot 1 issued weapons
with duplicate serial numbers. This created the appearance of a single weapon being
distributed more than once since these weapons were indistinguishable on the MoD
issuing document (the MoD Form 9) generated by the inventory management system.3


3
  According to paragraph 6-11.a of the Afghan MoD Decree 4.0, “Supported and Supporting Unit Supply
Policy and Support Procedures,” March 20, 2005, the MoD Form 9 is used to issue supplies and materiel
from depot stockage, transfer accountability from the supporting depot to the recipient, and cause shipping.
It also notifies the issuing depot that the requestor got the requested materiel.


                                                     8
Bulk Quantity Entries
We reviewed inventory management system records for 16,056 weapons in storage at
ANA Depot 1 as of April 16, 2008. We noted that 11,533 of these weapons (roughly
72 percent of those in storage), valued at $6.8 million, were recorded as bulk quantities
instead of having an individual serial number entry posted in the inventory record. ANA
Depot 1 senior mentors stated that because of the lack of a sufficient work force, they did
not enforce the entry of serial numbers in the inventory management system until just
before the weapons were issued. Instead, depot personnel receiving weapons entered
them into the inventory management system as bulk quantities and sealed them in storage
containers.

Weapons in Storage
We performed a 100-percent physical count of bulk weapons in storage at ANA Depot 1
on June 2 and 4, 2008 (see Figure 3). The inventory management system reported
10,835 bulk weapons stored at ANA Depot 1. However, our count, shown in the table
below, revealed that 11,134 weapons were on hand in bulk weapon storage there.

                 Physical Count of Bulk Weapons at ANA Depot 1
               Weapon               Bulk QTY     Auditor Count Discrepancy
    Walther P38                       5,000            5,005              5
    RPG-7 Grenade Launcher              134              226             92
    PKM Tank Mounted                     87               95              8
    GP25, Grenade Launcher              970            1,017             47
    Attachment
    M203, Grenade Launcher            1,219            1,219              0
    Light DShK Machine Gun                2                2              0
    PKM Crew Served                     389              389              0
    Mortar 60mm                          60               50            -10
    Mortar 82mm                          73               77              4
    M16A2                                10               10              0
    M4                                1,451            1,605           154
    AK-47 Wooden Stock                  690              689             -1
    Shotgun 12 gauge                    750              750              0
      Total                          10,835           11,134           321 *
   *Total discrepancies comprise 310 weapon overages and 11 weapon shortages.

As shown in the table, of the 11,134 weapons we counted, 310 weapons were not
accounted for in the inventory management system. In addition, 11 weapons accounted
for in the inventory management system were not found in storage during our count.
CSTC-A had accurate records for five weapon categories, but inaccurate records for eight




                                             9
weapon categories. Because the baseline inventory levels for the weapon categories were
incorrect, future bulk inventory levels in the inventory management system will be
misstated if not adjusted.




                 Figure 3. Auditor Counts Weapons at ANA Depot 1

Weapons Issued to ANA Units
CSTC-A had not implemented basic inventory controls in accordance with DoD guidance
and did not achieve data integrity in the ANA Depot 1 inventory management system.
This caused problems reconciling issued ANA weapons shipments to supporting
documents.

During our site visit to Kandahar, the Afghanistan Regional Security Integration
Command (ARSIC)-South Logistics Officer stated that he noted numerous serial number
discrepancies between MoD issuing documents and weapons actually received for
weapons shipments to the 205th Corps. According to the ARSIC-South Logistics Officer,
serial numbers for the initial shipment of 4,440 M16A2 rifles to the 205th Corps
contained more than 400 discrepancies, including the following.

      The 205th Corps 2nd Brigade had 6 identical serial numbers among the
       2,200 weapons on hand.
      The 3rd Brigade had 273 serial number discrepancies among the 2,196 weapons
       on hand.

In addition, the 4th Brigade had 21 serial number discrepancies in its initial shipment of
700 weapons from ANA Depot 1. These problems indicate that weapon serial numbers
were not checked against issuing documentation at ANA Depot 1.

The ARSIC-South logistics officer stated that he could not determine whether the
3rd Brigade was missing four M16A2 rifles because of the discrepancies. He requested
an accurate list of all M16A2 rifles issued to the 205th Corps; however, the CSTC-A
Logistics Office personnel stated they could not provide the requested information.
According to a memorandum dated May 30, 2008, from the ARSIC-South Logistics
Officer, the records of the 205th Corps forward supply depot indicated that the 3rd Brigade
received 2,200 weapons; however, according to his physical count only 2,196 had been
accounted for.


                                            10
Conclusion
The transfer of and the responsibility for the accountability and control of U.S.-supplied
weapons appeared to be informally accepted by ANA at ANA Depot 1. However,
because DoD guidance was not followed for the transfer of sensitive items, the
accountability, control, and physical security of weapons was not properly managed;
potentially misplaced, lost, and stolen weapons could not be properly tracked; and
weapons were not effectively delivered to the ANA. Accountable ANA officers and
U.S. Government representatives must establish the point at which ANA assumes formal
accountability for and control over the transferred weapons and the U.S. Government is
relieved of that responsibility.

Since accountable ANA officers and U.S. Government representatives did not establish a
point at which ANA assumed formal accountability for and control over the transferred
weapons, the U.S. Government was not relieved of that responsibility. Therefore,
responsibility to account for U.S.-supplied weapons at ANA Depot 1 belonged to the
U.S. Government.

CSTC-A did not have serial number control over weapons in storage or issued by ANA
Depot 1. Specifically, the inventory records for weapons at ANA Depot 1 were
inaccurate and incomplete. Weapons’ serial numbers, as recorded, were erroneous,
incomplete, duplicative, or missing. In addition, more than 400 serial number
discrepancies were identified by the ARSIC-South Logistics Officer in 205th Corps
weapon inventories issued from ANA Depot 1. These inaccuracies occurred because
ANA Depot 1 management lacked controls over the receipt, storage, and issue of
weapons and the data integrity of the inventory management system. Although weapons
received, stored, and issued by ANA Depot 1 were subject to an increased risk of
misplacement and theft, the magnitude of the accountability problem could not be
determined because of poor control and poor record keeping.

Since CSTC-A did not maintain serial number control of U.S.-provided weapons,
CSTC-A was unable to track with certainty the current status and location of the
weapons. Warehousing and issuing of weapons are vital tasks that must be mastered by
the ANA before it can become responsible for national security. Because of this, it is
critical that CSTC-A work toward turning over ANA Depot 1 management to the ANA.
The CSTC-A Logistics Office has implemented corrective action to address the problems
identified in this finding; however, continued emphasis is needed.

Management Actions
According to the CSTC-A Logistics Office’s Support Operations Officer, CSTC-A
initiated the following corrective actions before the issue of this report. CSTC-A had:

      begun to draft standard operating procedures that will require an ANA
       accountable officer to sign for the accountability, control, and physical security of
       serialized weapons when the weapons are entered into the ANA Depot 1
       inventory management system.



                                            11
      created a Logistics Office team to:
            conduct a 100-percent wall-to-wall inventory of ANA Depot 1 stock,
            assist in an inventory by serial number on receipt at ANA Depot 1 rather
               than at issue, and
            develop and implement a “cradle-to-grave” detailed standard operating
               procedure for ANA Depot 1 operations.
      issued Fragmentary Order 08-090, August 9, 2008, to all ARSIC property book
       officers requiring “a serial number inventory of all NATO standard weapons
       currently issued to the field in order to ensure accountability is established.”

In addition, the CSTC-A Logistics Office planned to:

      reconcile serial numbers on the weapons with those on packing lists on receipt
       and enter the serial numbers into the inventory management system; and
      conduct monthly inventories of 10 percent of weapons in stock at ANA Depot 1
       and perform staff assistance visits to verify that ANA units receive accurate serial
       number documentation from ANA Depot 1.

DoD IG Special Plans and Operations Team
In March, 2009, the DoD IG Office of Special Plans and Operations sent a team to
Afghanistan to assess weapons accountability and the train and equip mission for the
ASF. During their visit, the team assessed corrective actions taken by CSTC-A to
address recommendations found within this report. According to the DoD IG Special
Plans and Operations team, CSTC-A made a number of improvements in accountability
for ANA weapons. For example, CSTC-A implemented standard operating procedures at
ANA Depot 1 that includes provisions to:

      require the U.S. military to escort weapon shipments from the airport to the
       storage depot,
      establish a system to account for weapons upon receipt at ANA Depot 1, and
      implement data entry controls for the inventory management system.

Recommendations, Management Comments, and Our
Response
Because ANA capability to manage depot operations is limited, recommendations to
CSTC-A include both short- and long-term corrective actions.

A.1. We recommend that the Commanding General, Combined Security Transition
Command-Afghanistan:

   1. Develop and implement written procedures, with advice and assistance from
      the Afghan Ministry of Defense, for the delivery, joint inventory, and formal
      transfer of U.S.-supplied weapons provided to the Afghanistan National
      Army that accomplish the following:



                                            12
          a. Maintain an unbroken chain of custody from the point of entry at the
             Kabul Afghanistan International Airport to the point of formal
             transfer to the Afghanistan National Army.

CSTC-A Comments
The CSTC-A Deputy Commanding General neither agreed nor disagreed, but stated that,
prior to 2008, the Combined Forces Command-Afghanistan and CSTC-A accounted for
weapons by quantity according to the command’s understanding of DoD and U.S. Army
guidance at that time. The Deputy Commanding General stated that CSTC-A now has
documented procedures in place to account for weapons by serial number.

Our Response
We consider the CSTC-A comments responsive. The CSTC-A Deputy Commanding
General provided a copy of the weapons and ammunition standard operating procedures,
dated February 26, 2009. The procedures now require that CSTC-A account for
weapons by serial number and provide convoy escort by the U.S. military for weapons
delivery from Kabul Afghanistan International Airport to the designated depot.

          b. Establish a specific point of formal transfer of accountability for and
             custody and control of U.S.-supplied weapons to the ANA.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that the formal transfer of
accountability for custody and control of U.S.-supplied weapons to the ANA takes place
when the MoD Form 9 is signed by U.S. representatives and accountable officers from
the receiving unit. According to the CSTC-A Deputy Commanding General, this transfer
arrangement is in compliance with MoD supply policy.

Our Response
We consider the CSTC-A comments responsive.

   2. Complete and implement the Afghanistan National Army Depot 1 standard
      operating procedures for receipt, storage, and issue of munitions. At a
      minimum, these procedures should include the following actions:

          a. Perform a physical inventory of weapons and record the weapons’
             serial numbers in the inventory management system at the time the
             weapons are delivered.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that the standard operating
procedures require a physical inventory of weapons by serial number upon delivery by
the Depot Accountable Officer and verification by one other U.S. Service member, with
subsequent entry into the inventory management system.



                                          13
Our Response
We consider the CSTC-A comments responsive.

           b. Reconcile order manifests and expected delivery manifests.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that the standard operating
procedures for weapons and ammunition require reconciliation of the delivery manifest
against the items received. The command is also preparing a modification to Request for
Forces 937 to shift personnel requirements to create a skilled depot management team to
oversee weapons inventory and accountability at ANA Depot 1.

Our Response
We consider the CSTC-A comments responsive.

           c. Verify that weapon serial numbers match the Afghan Ministry of
              Defense issuing documents during the issuing process.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that command procedures
require two U.S. Service members to perform serial number verification to ensure the
MoD Form 9 matches what is being issued.

Our Response
We consider the CSTC-A comments responsive.

   3. Implement data input quality controls in the ANA Depot 1 inventory
      management system software to prevent duplicate serial entries.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed. He stated the command is currently
upgrading to a more advanced version of CoreIMS scheduled to be online in March 2009.
In the interim, CSTC-A has established a two-person verification system for stock record
accounting. According to CSTC-A, CoreIMS is not a very capable system in its present
configuration. Software and hardware upgrades are being applied, and CSTC-A
anticipates having increased capability by May 2009. The CSTC-A Deputy
Commanding General stated that CSTC-A implemented our recommendation to modify
the existing contract by requiring improved software functionality that improves stock
record accountability. The contract, awarded in late September 2008, had an initial
operational clearance of December 2008. Significant challenges in hardware have
pushed the expected delivery date of May 2009. According to the CSTC-A Deputy
Commanding General, the current CoreIMS timeline depends on contractor delivery and
fulfillment of the contract.




                                          14
Our Response
We consider the CSTC-A comments responsive.

   4. Implement data entry controls to verify the accurate recording of weapons’
      serial numbers in the ANA Depot 1 inventory management system.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated the command has updated
the policy to address this recommendation and is placing command emphasis on proper
policy execution and implementation.

Our Response
We consider the CSTC-A comments responsive.

   5. Conduct a 100-percent wall-to-wall physical inventory of all weapons at the
      Afghanistan National Army Depot 1 to establish a reliable baseline.

   6. Identify all weapons’ serial numbers in the course of the 100-percent wall-to-
      wall physical inventory, record those serial numbers in the inventory
      management system, and verify the accuracy of the entries.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that a wall-to-wall
inventory of ANA Depot 1 was completed in June 2008. CSTC-A planned to conduct a
wall-to-wall inventory from March 1 through 9, 2009, in order to transfer responsibility
to the incoming Logistics Officer and to reestablish the baseline in the inventory
management system.

Our Response
We consider the CSTC-A comments responsive.

   7. Require that all weapons’ serial numbers comply with the requirements of
      DoD 4000.25-M and Army Regulation 710-3 before acceptance at
      Afghanistan National Army Depot 1.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed, stating that the command is in
compliance as of November 2008. CSTC-A submits serial number batches to the DoD
Registry three times a month. The large volume required to be inputted into the system is
time intensive. The CSTC-A Deputy Commanding General stated the command has
inputted all NATO weapons that were received prior to December 2008.

Our Response
We consider the CSTC-A comments responsive.



                                           15
A.2. We recommend that the Commanding General, Combined Security Transition
Command-Afghanistan, develop, with advice and assistance from the Afghan
Ministry of Defense, a long-term plan of action that results in the Afghanistan
National Army management of Afghanistan National Army Depot 1 operations.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated the command is building
and equipping a new National Depot Complex made up of three large warehouses for the
ANA this year (FY 2009) which will become the national hub for the ANA. The first
warehouse was completed in March 2009. The second and third warehouses are being
built; the estimated completion date is 2010. ANA management of these depots will
include CSTC-A mentors to assist and advise on compliance with the ANA supply
decree.

Our Response
We consider the CSTC-A comments responsive.




                                         16
Finding B. Security of Weapons
ANA ASPs at Gardez, Herat, and Mazar-e-Sharif lacked the security required for
weapons and ammunition. In an effort to design ammunition consolidation points for
quicker truck offloading at the ANA ASPs, CSTC-A did not place adequate emphasis on
security. The ammunition consolidation points created large gaps in ASP perimeter
security fencing, which are contrary to DoD guidance.

Ammunition Supply Point Security
We visited the Gardez, Herat, and Mazar-e-Sharif construction sites to verify the
existence of ANA ASP facilities built with ASF fund monies. At Gardez, Herat, and
Mazar-e-Sharif, a chain-link security fence surrounded the ANA ASPs; however, large
gaps existed in the fencing, allowing access to sensitive materiel stored at those locations
(see Figure 4). DoD 5100.76-M, “Physical Security of Sensitive Conventional Arms,
Ammunition, and Explosives,” August 12, 2000, establishes guidance on the security for
bulk storage areas. It mandates that ASP perimeters be fenced as follows:

                  Fence fabric shall be chain link (galvanized, aluminized, or plastic
                   coated woven steel) 2-inch square mesh 9-gauge diameter wire,
                   including coating. In Europe, fencing may be North Atlantic
                   Treaty Organization (NATO) Standard Design Fencing (2.5-3 mm
                   gauge, 76 mm grid opening, 2-meter height, and 3.76-meter post
                   separation).
                  The minimum height of the fence fabric shall be 6 feet (excluding
                   top guard/outrigger).
                  Clear zones shall be established and shall extend a minimum of 12
                   feet on the outside and 30 feet on the inside (available real estate
                   permitting).
                  The perimeter fence shall have a minimum number of vehicular
                   and pedestrian gates, consistent with operational requirements.
                   Unless continuously guarded, gates shall be secured with locking
                   devices approved by the DoD Components. Hinge pins shall be
                   welded (or otherwise secured).

Ammunition Consolidation Points
CSTC-A officials stated that these unfenced areas were ammunition consolidation points
designed to allow trucks to quickly offload into the unfenced area and load again and to
permit the sorting of deliveries. However, not having a fence around the full perimeter of
the ASP reduces the capability of the security systems to deter and delay unauthorized
activities.




                                                 17
     Figure 4. Ammunition Supply Points in Herat (left) and Mazar-e-Sharif
     (right) Lack Security Fencing Around the Perimeter

Summary
Contrary to guidance contained in DoD 5100.76-M, security fences for the ANA ASPs at
Gardez, Herat, and Mazar-e-Sharif had large gaps and did not provide a secure perimeter.

DoD IG Special Plans and Operations Team
In March, 2009, the DoD IG Office of Special Plans and Operations sent a team to
Afghanistan to assess weapons accountability and the train and equip mission for the
ASF. During their visit, the team assessed corrective actions taken by CSTC-A to
address recommendations found within this report. The DoD IG Special Plans and
Operations team visited the ASP at Gardez which was completely enclosed with concrete
barriers and had one entry control point; however, there was concertina wire around only
half of the concrete barriers at a distance of 15 meters from the wall. The DoD IG
Special Plans and Operations team did not visit the ASPs in Herat and Mazar-e-Sharif.

Recommendation, Management Comments, and Our
Response
In response to management comments, we revised the recommendation in our draft report
that CSTC-A comply with DoD 5100.76-M to improve the security of ANA ammunition
supply points in Gardez, Mazar-e-Sharif, and Herat.

B. We recommend that the Commanding General, CSTC-A request that the
U.S. Army Office of the Deputy Chief of Staff for Operations and Plans perform a
security inspection of ASP facilities in Gardez, Herat, and Mazar-e-Sharif to
determine whether these facilities comply with U.S. Army regulations. We further
recommend that the inspection results be sent to the DoD Office of the Inspector
General for review.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that ammunition supply
points at Gardez, Herat, and Mazar-e-Sharif were designed to have either fencing or
concrete-filled barriers with concertina wire around them to provide security. According
to the CSTC-A Deputy Commanding General, the ammunition supply points were


                                           18
designed as temporary facilities to expedite the storage of ammunition at the forward
supply depots and were opened in the fall of 2007 with no holes or gaps in the perimeter
fencing or walls. The CSTC-A Deputy Commanding General said the long-term solution
is to provide permanent facilities to comply with DoD instructions, if DoD standards are
to be applied to Afghanistan.

Our Response
We do not consider the CSTC-A comments fully responsive. According to contract
clauses for the design and construction of the ASP facilities in Gardez, Herat, and Mazar-
e-Sharif (contract W917PM-06-C-0034), Army Regulation 190-11, “Physical Security of
Arms, Ammunition and Explosives,” February 12, 1998, applies to the construction of
the ASPs. This regulation implements the guidance found in DoD 5100.76-M for fencing
the perimeter of ASP facilities. In response to management’s comments, we revised our
recommendation and require a response from CSTC-A.




                                           19
20
Appendix A. Scope and Methodology
We conducted this performance audit in Afghanistan and the United States from
December 2007 through April 2009, in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We reviewed the accountability for the ASF Fund-purchased weapons procured in
support of the ANA as directed by Public Laws 109-13, 109-234, 109-289, 110-28,
110-161, and 110-252. We reviewed DoD and Department of the Army guidance related
to weapons serialization and accountability procedures. We reviewed CSTC-A
Operations Orders and the CSTC-A Campaign Plan.

In Afghanistan, we conducted fieldwork related to ANA weapons accountability from
February 25 through June 4, 2008. We visited ANA Depot 1, ARSIC-South in Kandahar,
ARSIC-East in Gardez, ARSIC-West in Herat, and ARSIC-North in Mazar-e-Sharif. As
part of our ARSIC site visits, we visited ANA ASPs.

We interviewed U.S. Government and contractor officials regarding standard operating
procedures and equipment turnover procedures. We reviewed the CSTC-A inventory
management system at ANA Depot 1. We conducted physical counts of bulk weapons in
storage at ANA Depot 1.

Use of Computer-Processed Data
We used the ANA Depot 1 inventory management system to generate reports. The
computer-processed data in the inventory management system were unreliable for
the 13 weapons models we reviewed. Of the 13 weapons models we reviewed, 8 had
bulk inventory levels different from what was reported in the inventory management
system, resulting in a 321-weapon discrepancy. In addition, the inventory management
system contained multiple instances of incomplete and duplicate serial numbers. The
data from the ANA Depot 1 inventory management system was reviewed in conjunction
with other available evidence to support the opinions, conclusions, and recommendations
made in this report.




                                           21
22
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Special
Inspector General for Iraq Reconstruction (SIGIR), and the Department of Defense
Inspector General (DoD IG) have issued 13 reports discussing accountability for goods
and services provided to the Iraq and Afghanistan Security Forces. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted SIGIR
reports can be accessed over the Internet at http://www.sigir.mil. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-661, “Afghanistan Security: Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain
Capable Afghan National Security Forces,” June 2008

GAO Report No. GAO-07-711, “Stabilizing Iraq: DoD Cannot Ensure that U.S.-Funded
Equipment has Reached Iraqi Security Forces,” July 2007

GAO Report No. GAO-07-582T, “Operation Iraqi Freedom: Preliminary Observations on
Iraqi Security Forces’ Logistical Capabilities,” March 2007

GAO Report No. GAO-07-308SP, “Securing, Stabilizing, and Rebuilding Iraq: Key
Issues for Congressional Oversight,” January 2007

GAO Report No. GAO-05-575, “Afghanistan Security: Efforts to Establish Army and
Police Have Made Progress, but Future Plans Need to Be Better Defined,” June 2005

SIGIR
SIGIR Report No. SIGIR-06-033, “Iraqi Security Forces: Weapons Provided by the U.S.
Department of Defense Using the Iraq Relief and Reconstruction Fund,” October 2006

DoD IG
DoD IG Report D-2009-050, “Distribution of Funds and the Validity of Obligations for
the Management of the Afghanistan Security Forces Fund Phase II,” February 5, 2009

DoD IG Report D-2009-031, “Afghanistan Security Forces Fund Phase III – Air Force
Real Property Accountability,” December 29, 2008

DoD IG Report SPO-2009-002, “Report on the Assessment of Arms, Ammunition, and
Explosives Accountability and Control; Security Assistance; and Logistics Sustainment
for the Iraq Security Forces,” December 19, 2008




                                           23
DoD IG Report SPO-2009-001, “Assessment of Arms, Ammunition, and Explosives
Control and Accountability; Security Assistance; and Sustainment for the Afghan
National Security Forces,” October 24, 2008

DoD IG Report No. SPO-2008-001, “Assessment of the Accountability of Arms and
Ammunition Provided to the Security Forces of Iraq,” July 3, 2008

DoD IG Report No. D-2008-026, “Management of the Iraq Security Forces Fund in
Southwest Asia - Phase III,” November 2007

DoD IG Report No. D-2008-012, “Distribution of Funds and Validity of Obligations for
the Management of the Afghanistan Security Forces Fund-Phase I,” November 2007




                                         24
Appendix C. Procedures for Pseudo-Foreign
Military Sales
CSTC-A uses pseudo-Foreign Military Sales (pseudo-FMS) procedures to support the
ASF. These procedures differ from standard FMS procedures. FMS is a program
administered by the Defense Security Cooperation Agency (DSCA) through which
eligible foreign governments agree to use their funds to purchase defense articles,
services, and training from the U.S. Government. The U.S. Government and foreign
government sign a letter of offer and acceptance (LOA), or case, after reaching
agreement on the type, cost, and other terms of the requested assistance. Each case has a
unique case identifier for accounting purposes. FMS procedures for obtaining assistance
using the ASF Fund are referred to as “pseudo” because the U.S. Government is not
selling defense items to a foreign customer but instead to another U.S. Government
entity.1 Preparation of a pseudo-LOA, however, generally follows FMS procedures. In
addition, both FMS and pseudo-FMS procedures can be used to request assistance from
the commands and agencies throughout the DoD FMS community.

The process for obtaining goods and services for the ASF begins when CSTC-A sends a
memorandum of request to DSCA to fund specific assistance. DSCA reviews the request
for consistency with the purpose for which the cited ASF funds were appropriated.
DSCA then assigns the request to a DoD implementing agency.2 After the implementing
agency identifies the funding and other requirements to provide the assistance and DSCA
approves the pseudo-LOA, DSCA notifies the Secretary of State. Upon Department of
State concurrence, DSCA directs the Defense Financial Accounting Service-Indianapolis
to transfer funds from an ASF appropriation into the FMS Trust Fund for the case.3 The
implementing agency then establishes the case in applicable data systems and issues
instructions for executing the case.




1
  DSCA manages ASF funds after transferring them into the FMS Trust Fund. DSCA then collects an
administrative fee (currently 3.8 percent of the total pseudo-FMS case value) to recover DoD expenses
related to sales negotiations, case implementation, procurement, program control, computer programming,
accounting and budgeting. The authorization to transfer ASF funds into the FMS Trust Fund and for
DSCA to collect administrative fees is under review in DoD IG Project No. D2007-D000FD-0198.000.
2
 An implementing agency is the DoD Component assigned responsibility by DSCA to prepare the pseudo-
LOA, establish the case, and provide overall management to ensure delivery of the materials or services set
forth in an implemented pseudo-LOA.
3
  A case may have many lines to individually track the funding, delivery terms, and other conditions
applicable to several types of goods and services included in the request for assistance. For example, a
request for vehicles could have separate lines for vehicles, spare parts, operator manuals, and other items or
services.


                                                     25
26
Appendix D. Inventory Control Guidance
Section 524, Title 40, United States Code
Section 524, title 40, United States Code requires that an executive agency “maintain
adequate inventory controls and accountability systems for property under its control.”

DoD Guidance
DoD 4000.25-M, “Defense Logistics Management System,” volume 2, chapter 18
“Small Arms and Light Weapons Serial Number Registration and Reporting”,
change 2, June 2005, provides procedures for reporting small arms serial number data
between the DoD Components and the DoD Registry. DoD 4000.25-M provides
accountability guidance on small arms with missing or foreign weapon serial numbers.

DoD 4100.39-M, “Federal Logistics Information System,” volume 10, table 61,
October 2008, defines small arms, ammunition, and explosives, and demolition materiel
as sensitive items that require a high degree of protection and control because of statutory
requirements or regulations.

DoD Instruction 5000.64, “Accountability and Management of DoD-Owned
Equipment and Other Accountable Property,” November 2, 2006, establishes policy
and procedures to comply with section 524, title 40, United States Code. It states that
“all persons entrusted with the management of Government property shall possess and
continually demonstrate an appropriate level of competence and proficiency in property
accountability and management.” In addition, accountable property records shall be
established for all property purchased, or otherwise obtained that are sensitive or
classified as defined in DoD 4100.39-M. Property records will be kept current and shall
provide a complete trail of all transactions, suitable for audit . . . . Accountable property
records shall reflect current status and location, until . . . the Component is otherwise
formally relieved of accountability by authorized means . . . .”

DoD Instruction 5000.64 defines accountability as follows:

               The obligation imposed by law, lawful order, or regulation, accepted by
               an organization or person for keeping accurate records, to ensure
               control of property, documents or funds, with or without physical
               possession. The obligation, in this context, refers to the fiduciary
               duties, responsibilities, and obligations necessary for protecting the
               public interest; however, it does not necessarily impose personal
               liability on an organization or person.

DoD Instruction 5100.76, “Safeguarding Conventional Arms, Ammunition, and
Explosives (AA&E) and the AA&E Physical Security Review Board,” October 8,
2005, applies to the accountability and control of AA&E and other designated sensitive
items. DoD Instruction 5100.76 outlines the authorities, responsibilities, and functions




                                                27
relative to worldwide uniform policy, standards, and guidance for the physical security of
conventional AA&E in the possession or custody of the DoD Components.

Army Regulations
Army Regulation 710.3. “Inventory Management Asset and Transaction Reporting
System,” February 25, 2008, implements applicable provisions of DoD 4000.25–2–M.
This regulation “provides the DA [Department of the Army] standard procedures for
reporting small arms serial number data under DoD SASP [Department of Defense Small
Arms Serialization Program] as defined and required per DoD 4000.25-2–M. The DoD
SASP is a DoD-wide system established to maintain small arms serial number visibility.”




                                           28
Appendix E. Afghanistan National Army
Depot 1 Procedures
Receipt at Afghanistan National Army Depot 1
The U.S. Government shipped weapons by air into Kabul Afghanistan International
Airport for transfer to the ANA. CSTC-A and the Central Movement Agency, a
Component of the IRoA MoD Logistics Command, received the weapons at the airport.
A Central Movement Agency representative signed for custody of the shipment on a
CSTC-A “Accountability Transfer Form.” CSTC-A and Central Movement Agency
representatives signed the document but the only shipment information on the form was
the number of pallets that arrived at the airport. The pallets were transported by the
Central Movement Agency to ANA Depot 1 (see figure below) without being inventoried
by serial number.




      Weapons Arriving at ANA Depot 1 (left) Destined for the Warehouse (right).

Representatives of CSTC-A advised us that the Central Movement Agency transported
the weapons received at Kabul International Airport to ANA Depot 1 for storage and
accountability. U.S. military personnel were required to be present to supervise the
receipt of these weapons at the depot. ANA Depot 1 staff compared the number of
weapons received with the quantities of weapons reported on the documentation received
with each shipment.1 However, the staff did not open the weapon crates to perform this
count. Instead, they determined the quantity of weapons received by counting the total
number of crates in the delivery and then multiplying the results by the number of
weapons typically contained in each crate. For NATO standard weapons, ANA Depot 1
senior mentors signed a DD Form 1348 TAC-1A but did not return the documents to the
U.S. Army Security Assistance Command as receipt feedback.

On many occasions, MPRI Inc. representatives did not enter the serial numbers of
weapons received into the inventory management system. The CSTC-A representatives


1
  NATO weapons were received using a DD Form 1348 TAC-1A “Issue Release/Receipt Document,”
which included the quantity of weapons per shipment. Non-NATO weapons were delivered with a packing
list attached which contained weapon quantities.


                                                29
stated that when a partial shipment was received, they would enter the weapons as a bulk
quantity into the portion of the inventory management system normally used for
recording serial numbers. Since the U.S. Army Security Assistance Command often
transports ASF funded weapons by air as space is available, it is not uncommon for
partial shipments of weapons to arrive at Kabul International Airport.

Storage at Afghanistan National Army Depot 1
After the weapons were received at the depot, they were stored in metal cargo containers
until they were allocated for issue. ANA Depot 1 weapons personnel fastened each
container with a numbered seal and locked it with a U.S. Government regulation lock.

Non-NATO standard weapons did not always arrive at ANA Depot 1 in conditions
deemed ready for use. ANA Depot 1 staff removed non-NATO standard weapons from
storage and issued them to the Logistical Task Force Phoenix – Foreign Weapons
Inspection Team for technical inspection and repair, if necessary, using a DD Form 3161
“Request for Issue or Turn-in” hand receipt. Weapons considered to be “ready for issue”
were certified by the inspection team, crated along with a serialized packing slip, and
turned back into the depot for entry into the inventory management system. The
DD Form 3161 was re-signed to verify the return of weapons from the inspection team to
ANA Depot 1.

MPRI enters serial numbers into the inventory management system just before the
weapons are allocated for issue. Before this point, CSTC-A did not track individual
weapons by serial number. MPRI Inc. personnel entered serial numbers into the
inventory management system from the packing list attached to weapon crates (NATO
standard weapons) or the slip created by the Foreign Weapons Inspection Team (non-
NATO standard weapons). Since serial numbers on the documentation were not checked
against the actual weapons received, serial numbers entered into the inventory
management system may not have been valid. ANA Depot 1 staff stated that because of
the volume and frequency of weapon deliveries, staff levels at this Depot were not
sufficient to perform serial number checks. After weapon serial numbers were entered
into the inventory management system, weapons were presumed ready to be allocated for
issue.

Weapons Distribution Process at Afghanistan National
Army Depot 1
The ANA Depot 1 distributed weapons either through an approved MoD request
document2 or through a CSTC-A Logistics Office distribution plan, also known as a
“push” plan. Before filling a requested order at ANA Depot 1, U.S. military mentors
verify that the MoD request document contains the weapons item manager’s


2
 The MoD uses the MoD Form 14 as its official request document. According to paragraph 8-3.d of
Afghanistan MoD Decree 4.0, “Supported and Supporting Unit Supply Policy and Support Procedures,”
March 20, 2005, the MoD Form 14 “is used by all units to order all commodities of materiel using the
military supply system.”


                                                  30
authorization and signature confirming that the request was verified against the unit’s
Tashkil.3 Weapons distributed by push plan required review by U.S. senior mentors at
ANA Depot 1 to determine a pickup date.

The U.S. senior mentors sent either MoD request documents or push plans to the stock
records office at ANA Depot 1 to be filled. MPRI Inc. personnel created an ANA order
number and allocated weapons for pickup in the inventory management system. ANA
Depot 1 staff moved allocated weapons to the receiving unit’s storage container for
pickup while MPRI Inc. personnel prepared and printed the MoD issuing document for
the order, complete with serial numbers, from the inventory management system. The
MoD issuing document was used to release supplies and materiel from depot stock and
transfer accountability from the supporting depot to the receiving ANA unit.

According to ANA Depot 1 senior mentors, both U.S. and ANA personnel at ANA
Depot 1, along with a representative from the receiving ANA unit, verified that serial
numbers on weapons being issued matched the MoD issuing document. However, a
memorandum provided by the ARSIC-South Logistics Officer indicated that serial
number verification was not performed for the recent 205th Corps orders filled at ANA
Depot 1.

At the time of issue to the ANA, an ANA representative from ANA Depot 1 along with
the receiving unit representative signed the MoD issuing document. However, before this
point the U.S. Government never officially transferred ownership to the IRoA.




3
 The approved Tashkil represents the aggregate of authorized equipment allocated to ANA units. The
equipment listed has been identified as the minimum required for gaining essential ANA operational
capabilities and combat power.



                                                  31
32
Combined Security Transition Command-Afghanistan
Comments




                              33
Click to add JPEG file




               34
Click to add JPEG file




               35
Click to add JPEG file




               36
                           Final Report
                            Reference




                         Revised
                         Page 18




Click to add JPEG file




               37
